Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




NEW YORK IMPROPERLY CLAIMED
MEDICAID REIMBURSEMENT FOR
 SOME HOME HEALTH SERVICES
CLAIMS SUBMITTED BY CERTIFIED
HOME HEALTH AGENCIES IN NEW
         YORK CITY
   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                 Daniel R. Levinson
                                                  Inspector General

                                                   November 2012
                                                   A-02-10-01022
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although each State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. Pursuant to section 1905(b) of the Act, the Federal
Government pays its share of a State’s medical assistance expenditures under Medicaid based on
the Federal medical assistance percentage, which varies depending on a State’s relative per
capita income.

In New York State, the Department of Health (State agency) administers Medicaid. The home
health services program is operated by the State agency’s Office of Long Term Care. Under the
program, Certified Home Health Agencies (CHHA) provide preventive, therapeutic, and/or
rehabilitative services to Medicaid beneficiaries.

Pursuant to Federal regulations, home health services are provided to a beneficiary at the
beneficiary’s place of residence and on his or her physician’s orders as part of a written plan of
care that the physician reviews every 60 days. Many providers use Form CMS-485, Home
Health Certification and Plan of Care, as the required plan of care to document physicians’
orders for home health services.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by CHHAs in New
York City in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some home health services
claims submitted by CHHAs in New York City that were not in accordance with Federal and
State requirements. Of the 100 claims in our random sample, 83 claims complied with Federal
and State requirements, but 17 claims did not. Of the 17 claims, 1 contained more than 1
deficiency. Specifically, for 17 claims, the plan of care was not reviewed every 60 days and, for
1 claim, the provider was unable to document that the service was provided.

These deficiencies occurred because some CHHAs in New York City did not comply with
Federal and State requirements.




                                                 i
On the basis of our sample results, we estimated that the State agency improperly claimed
$69,121,473 in Federal Medicaid reimbursement during our January 1, 2007, through December
31, 2009, audit period.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $69,121,473 to the Federal Government and

   •   issue guidance to CHHAs in New York City on Federal and State requirements for
       physicians’ orders and plans of care.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not indicate either concurrence or
nonconcurrence with our two recommendations and stated that it is currently reviewing the
claims data associated with our findings. The State agency stated that once its review is
complete, it will evaluate whether to refund monies to the Federal Government and “also
evaluate whether the issuance of guidance to CHHAs in New York City is warranted.”

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency’s comments appear in their entirety as
Appendix D.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
            Medicaid Program ..................................................................................................... 1
            New York State’s Medicaid Program ....................................................................... 1
            New York State’s Home Health Services Program .................................................. 1
            Federal Requirements for Home Health Services ..................................................... 2
            State Requirements for Home Health Services ......................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
            Objective ................................................................................................................... 2
            Scope ........................................................................................................................ 3
            Methodology ............................................................................................................. 3

FINDINGS AND RECOMMENDATIONS ........................................................................... 4

          PLAN OF CARE NOT REVIEWED ............................................................................. 4

          SERVICE NOT DOCUMENTED.................................................................................. 5

          ESTIMATE OF THE UNALLOWABLE AMOUNT.................................................... 5

          RECOMMENDATIONS ................................................................................................ 5

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................. 5

APPENDIXES

          A: FORM CMS-485, HOME HEALTH CERTIFICATION AND PLAN OF CARE

          B: SAMPLE DESIGN AND METHODOLOGY

          C: SAMPLE RESULTS AND ESTIMATES

          D: STATE AGENCY COMMENTS




                                                                     iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer Medicaid. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers Medicaid. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although each State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. Pursuant to section 1905(b) of the Act, the Federal
Government pays its share of a State’s medical assistance expenditures under Medicaid based on
the Federal medical assistance percentage (FMAP), which varies depending on a State’s relative
per capita income.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (State agency) administers Medicaid.
The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims. From January
1, 2006, through September 30, 2008, the FMAP in the State was 50 percent. From October 1,
2008, through June 30, 2010, the FMAP in the State varied from 58.78 percent to 61.59 percent. 1

New York State’s Home Health Services Program

Within the State agency, the Office of Long Term Care operates the home health services
program. Under that program, Certified Home Health Agencies (CHHA) provide preventive,
therapeutic, and/or rehabilitative services to Medicaid beneficiaries. 2 CHHAs may contract with
Licensed Home Care Services Agencies (LHCSA) to provide home health services. 3 Most
CHHAs provide nursing care directly to beneficiaries and contract with one or more LHCSAs to
provide other home health services such as physical therapy and occupational therapy.

Reimbursement under the Medicaid program is available for home health services provided by
CHHAs certified by the State agency. According to State regulations at Title 10 § 763.3(a) of
the New York Compilation of Codes, Rules, & Regulations (NYCRR), a CHHA must be able to
provide, directly or through contractual arrangement, a minimum of four services: nursing,

1
  Specifically, from October 1, 2008, through March 31, 2009, the FMAP was 58.78 percent; from April 1, 2009,
through June 30, 2009, the FMAP was 60.19 percent; and from July 1, 2009, through June 30, 2010, the FMAP was
61.59 percent.
2
  Medicaid beneficiaries who receive home health services may be acutely or chronically ill with conditions
requiring skilled nursing services or conditions requiring only maintenance and supervision. The level of need may
range from total dependence to virtual independence.
3
    LHCSAs are not-for-profit or proprietary organizations and are generally not qualified to participate as CHHAs.

                                                           1
home health aide, medical supplies/equipment/appliances, and at least one optional service (e.g.,
physical therapy, occupational therapy).

Federal Requirements for Home Health Services

Section 1905(a)(7) of the Act authorizes home health services. Pursuant to 42 CFR § 440.70(a),
“home health services” are services provided to a beneficiary at the beneficiary’s place of
residence and “[o]n his or her physician’s orders as part of a written plan of care that the
physician reviews every 60 days ….” Many providers use Form CMS-485, Home Health
Certification and Plan of Care, as the required plan of care to document physicians’ orders for
home health services. 4 Line 3 of Form CMS-485 is entitled “Certification Period” and includes
spaces for providers to enter “From” and “To” dates for valid home health services. The
certification period represents the 60-day period during which the plan of care is valid.
Physician review is required at the end of each certification period. (See Appendix A for the
CMS form.)

Principles and standards for determining allowable costs incurred by State and local governments
under Federal awards are established by 2 CFR pt. 225 (formerly Office of Management and
Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments).
Pursuant to 2 CFR § App. A,C.1.c, to be allowable, costs must be authorized or not prohibited by
State or local laws and regulations.

State Requirements for Home Health Services

New York’s approved State Medicaid Plan (SPA 07-13) provides that home health care services
are medically necessary services (physician order required) that a CHHA provides to individuals
in the home and community. State regulations for home health services covered under the State
plan are in 18 NYCRR § 505.23. 5

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for selected State plan home health services claims submitted by CHHAs in New
York City in accordance with Federal and State requirements.




4
 Form CMS-485 is not a required form. CHHAs may submit any document that: (1) has a physician’s signature
and date, (2) has all of the Form’s data elements, and (3) is in accordance with the current rules governing the home
health plan of care.
5
 All citations to 18 NYCRR § 505.23 are to the 2009 edition of the NYCRR, which is applicable to our entire audit
period. The section was amended in November 2010.

                                                          2
Scope

Our audit period covered January 1, 2007, through December 31, 2009. Our review covered
8,014,053 claim lines, totaling $1,284,554,312 ($642,291,220 Federal share), submitted by
CHHAs in New York City. (In this report, we refer to these lines as claims.) We limited our
review to claims for the following State plan services: home health aide, nursing, occupational
therapy, physical therapy, audiology, speech therapy, and speech pathology.

We plan to issue a separate report (A-02-11-01008) on the State agency’s claims for Medicaid
reimbursement for home health services claims submitted by CHHAs outside New York City.

During our audit, we did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we limited our internal control review to those controls related to
the objective of our audit.

We performed fieldwork at the State agency’s offices in Albany, New York; at the MMIS fiscal
agent in Rensselaer, New York; at 31 CHHAs in New York City; and at 37 LHCSAs throughout
the New York City metropolitan area.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State laws, regulations, and guidelines;

       •   held discussions with officials of the State agency and the New York City social service
           district to gain an understanding of the home health services program;

       •   identified a sampling frame of 8,014,053 selected State plan home health services claims,
           totaling $1,284,554,312 ($642,291,220 Federal share), submitted by CHHAs in New
           York City; 6

       •   selected a simple random sample of 100 claims 7 from the sampling frame of 8,014,053
           claims; and for each of these 100 claims we:

               o reviewed the CHHA’s and contracted LHCSA’s (if applicable) documentation
                 supporting the claim and

               o reviewed the personnel file of the corresponding home health aide or medical
                 professional for training documentation and certifications; and

6
 We used CHHAs’ correspondence addresses and county codes on the MMIS to identify those located in New York
City. The sampling frame did not include claims submitted by 11 CHHAs previously audited by the New York
State Office of Medicaid Inspector General. In addition, the sampling frame did not include CHHAs’ claims for
services provided by one CHHA that we previously audited (A-02-10-01002).
7
    The 100 sample claims included 76 home health aide services, 22 nursing services, and 2 physical therapy services.

                                                           3
   •   estimated the unallowable Federal Medicaid reimbursement paid in the population of
       8,014,053 claims.

Our sample design and methodology are in Appendix B.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some home health services
claims submitted by CHHAs in New York City that were not in accordance with Federal and
State requirements. Of the 100 claims in our random sample, 83 claims complied with Federal
and State requirements, but 17 claims did not. Of the 17 claims, 1 contained more than 1
deficiency. Specifically, for 17 claims, the plan of care was not reviewed every 60 days and, for
1 claim, the provider was unable to document that the service was provided.

These deficiencies occurred because some CHHAs in New York City did not comply with
Federal and State requirements.

Based on our sample results, we estimated that the State agency improperly claimed $69,121,473
in Federal Medicaid reimbursement during our January 1, 2007, through December 31, 2009,
audit period.

PLAN OF CARE NOT REVIEWED

Pursuant to 42 CFR § 440.70(a)(2), home health services mean services provided to a beneficiary
on his or her physician’s orders as part of a written plan of care that the physician reviews every
60 days. All of the CHHAs in our sample used Form CMS-485 to document both the
certification period based on a physician’s review every 60 days and a plan of care for each
Medicaid beneficiary.

For 17 of the 100 claims in our sample, a physician did not review the corresponding plan of care
within the 60-day certification period indicated on the corresponding Form CMS-485. For these
claims, the physician reviewed Form CMS-485 an average of 51 days after the 60-day
certification period ended. The CHHA officials that we interviewed stated that these
unallowable claims occurred because it was difficult to coordinate plan of care reviews with
beneficiaries’ physicians within the required 60-day period.




                                                4
SERVICE NOT DOCUMENTED

Pursuant to 42 CFR § 433.32, services claimed for Federal Medicaid reimbursement must be
documented. Pursuant to 18 NYCRR § 505.23(e)(1), payments for home health services are
prohibited unless the claims for payment are supported by documentation of the time spent
providing services.

For 1 of the 100 sample claims, the provider was unable to document that services were provided
for 8 of the 20 hours billed on our sample service date.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 home health services claims that we sampled, 17 were not made in accordance with
Federal and State requirements. On the basis of our sample results, we estimated that the State
improperly claimed $69,121,473 in Federal Medicaid reimbursement from January 1, 2007,
through December 31, 2009, for selected State plan home health services claims that CHHAs in
New York City submitted. Our sample results and estimates are in Appendix C.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $69,121,473 to the Federal Government and

   •   issue guidance to CHHAs in New York City on Federal and State requirements for
       physicians’ orders and plans of care.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not indicate either concurrence or
nonconcurrence with our two recommendations and stated that it is currently reviewing the
claims data associated with our findings. The State agency stated that once its review is
complete, it will evaluate whether to refund monies to the Federal Government and “also
evaluate whether the issuance of guidance to CHHAs in New York City is warranted.”

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency’s comments appear in their entirety as
Appendix D.




                                                5
APPENDIXES
APPENDIX A: FORM CMS-485, HOME HEALTH CERTIFICATION
                 AND PLAN OF CARE
                   APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population selected was State plan home health claim lines (claims) submitted by Certified
Home Health Agencies (CHHA) in New York City during our January 1, 2007, through
December 31, 2009, audit period that New York State claimed for Federal Medicaid
reimbursement.

SAMPLING FRAME

The sampling frame was a computer file containing 8,014,053 detailed paid claims for selected
State plan home health services submitted by CHHAs in New York City during our audit
period. 1 The total Medicaid reimbursement for the 8,014,053 claims was $1,284,554,312
($642,291,220 Federal share). The Medicaid claims were extracted from the claim files
maintained at the Medicaid Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid home health services claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the 8,014,053 detailed claims. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at a 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.


1
  We limited our review to claims for the following State plan services: home health aide, nursing, occupational
therapy, physical therapy, audiology, speech therapy, and speech pathology.
            APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                            Sample Details and Results
                                                                          Value of
                                                           Number
              Value of                                                   Unallowable
                                          Value of             of
               Frame                                                       Claims
Claims in                   Sample         Sample         Unallowable
              (Federal                                                    (Federal
 Frame                       Size      (Federal Share)      Claims
               Share)                                                      Share)

8,014,053   $642,291,220      100           $9,274             17          $1,542



                       Estimated Value of Unallowable Costs
              (Limits Calculated for a 90-Percent Confidence Interval)

                    Point estimate                   $123,574,293

                    Lower limit                       $69,121,473

                    Upper limit                      $178,027,113
                                                                                                               Page I of2


                  APPENDIX D: STAT E AG ENCY COMMENTS 





=   ========,r NEW YORK
                      pI 1b=======
                         .              .    ,10" J'''Q''m.~'
 Njr~,   R SlIah. M.D M.P H
 eo,.,...oUioNo
                                            HEALTH                                                  Sue Koolly
                                                                               E_..,-,,.. D.pu1y C"",,,,.....:w-



                                                           AuguSt 22. 20 12



James P. Eden
Regional Inspector (jeneral for !\ud!1 Services
Ikpanmcilt of HC:llth [lIId Human Services
Region II
Jacob 1a\'ll7. Feder..l Building
26 Fedeml Plaza
New York. New York 10271{

                                                           Ref. No: A-02- IO-0 1022

Dear Mr. Eden:

          The New York Slllle Department of l-/c;ll1h (Dt'panll1c nlj has reviewed Department of
}-k alth LInd I [uman Services. Otlicc of Inspector General (OIG) dr;l.fi audit report A·OZ· ] 0·0 I 022
entitled "New York Improperly C lailm.'<I Medicaid Reimbursement for Some I lome Ilcalth
Services C laims Submi ncd by Certified ]'Iome Health Agencies in New York City:"

        The report includes recommendations for Ihe Department to refund $69, I 2 1,473 to the
Feder.II Gowmment, and to also issue guidance 10 Certified Home Health Agencies (CI II lAs) in
Nell York City on Federal and Stah: RL'quircmcnts for physicians' orden: and plans of care.

        O[G iden tilied fo r thc Department the claims data associated with the lindings, which is
currently under review by Department s1;I11 When this rc\ it:w is finali zed. the Department wil l
evalua te the recommendation lor it to refund monies 10 the Federal Govemmt:nt. and also
evalullte whether the issuance o f gu id rlllce to Cllll As in New York Cil Y is warranted.

          Thank you fbr the opportunity 10 comment.

                                                           SirH;<:rd,..



                                               -'.:::~,,:;....L ~
                                                          Deputy Cornmissiont:r fM Admin istration




                                            HEA LTH .NY.GOV
                                            ,..- .       NVSOQtl
                                            ,.,.,..... """ _lINva­
                              Page 2 of2




Mr. James P. Edert
AugUS122,2012
Page two



cc: 	   Richllrd Cook
        Rebecca Fuller Gray
        Mark Kissinger
        Mary Anll Anglin
        Cynthia Beaudoin
        Jason I-Idgcrson
        James C. Cox
        Diane Christensen
        Stephen }\bb()l1
        Stephen LaCasse
        Irene M yron 

        John Brooks 

        Ronald Farrell
